                                                        NA TIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: AI0070051                                                                        Page 1 of 1



                   We assessed concerns about the accountability of results and success of an NSF award. I The
          initial complaint identified an individual2 who was neither a PI nor CoPlon the award but who
          received support.3 The concerns appeared focused on the effectiveness of the curriculum chosen by a
          ~chool district4 and its alleged harmful impact on the students. The issues escalated into a
          disagreement that resulted in legal proceedings to which NSF was not a party.

                   We determined that the school district's choice of curriculum and textbooks was independent
          of the NSF awardee's project. The individual's university5 provided IRB review of the human
          subjects research activities with respect to the primary subjects (teachers) and secondary subjects
          (their students). Observation ofthe students was incidental to the observation of the teachers. The
          IRB required informed consent and alternative options for those not wishing to participate. Because
          the school district and not the NSF awardee selected the curriculum, the students would have been
          exposed to the curriculum regardless of their participation as secondary subjects. Thus, any harm to
          the students derived from the choice in curriculum. does not appear to be a consequence of the
          awardee's observations in the school district.

                  There is insufficient evidence to suggest any improprieties with the conduct of the award in
          question.

                    Accordingly, this case is closed.




NSF OIG Fonn 2 (11/02)
